                                                                                    Page 1 o




                                        Evaluation Report No. 99 -004

                                                June 15, 1999

    l   Report and Appendix 1 & 2 (832Kb PDF file - PDF help or hard copy)
    l   Appendix 3 (20Kb PDF file - PDF help or hard copy)
    l   Transmittal Letter (12Kb PDF file - PDF help or hard copy)




                          Home Contact Us Search Help SiteMap Forms
                         Freedom of Information Act Website Policies FirstGov.gov




http://www.fdic.gov/oig/e-rep99/99-004.html                                          12/8/2003
